 Department of Health and Human Services
         OFFICE OF
    INSPECTOR GENERAL




FINANCIAL ARRANGEMENTS BETWEEN
  HOSPITALS AND HOSPITAL-BASED
            PHYSICIANS




                 Richard P . Kusserow
      .-
      W
      I          INSPECTOR GENERAL

                     OEI-09-89-00330
             TABLE OF CONTENTS


INTRODUCTION  ................................................. 1
FINDINGS ...................................................... 3

RECOMMENDATIONS ............................................ 5

APPENDIX A. HCFA Comments

APPENDIX B. AHA Comments

APPENDIX C. CAP Comments
                          INTRODUCTION
PURPOSE

This management advisory report (MAR) alerts you to potential violations of the anti-
kickback statute (statute), section 1128B@) of the Social Security Act (42 U.S.C.
section 1320a-7b@)). We have identified potential violations in the financial
arrangements between some hospitals and hospital-based physicians because these
agreements appear to require physicians to pay more than the fair market value for
services provided by the hospitals. We are continuing to pursue illegal arrangements
where referring physicians receive kickbacks from hospitals. This MAR focuses on
arrangements in which hospitals receive suspect remuneration from physicians.

BACKGROUND

Hospital-based physicians include specialists such as anesthesiologists, pathologists, and
radiologists. Each of these specialties is dependent on their position at the hospital to
obtain referrals from other specialists practicing at their hospital. h'addition,
hospitals often perform a variety of services for these physicians. In turn, the hospitals
are dependent on the hospital-based physicians because they provide essential services
to the hospitals. Some hospitals have reduced payments to hospital-based physicians,
and some are requiring payments from those physicians ostensibly to reimburse the
hospital for the services it performs, or for other purposes, such as "contnibutions" to a
capital fund. !

Medicare pays for the services of hospital-based physicians in a variety of ways.
Usually, Medicare pays physicians directly for the services delivered. However, when
pathologists perform clinical laboratory services for hospital inpatients under Part A,
some portion of Medicare's prospective payment amounts to the hospital is lor (ha:
pathology service. Medicare Part B payments for anatomic pathology services are
more complicated. Technical and professional components are paid separately. The
former go directly to hospitals and the latter to the pathologist.

Legal Criteria

Section 1128B(b) makes it illegal to offer, pay, solicit, or receive remuneration for
referring patients or for arranging for or recommending the ordering of any service
payable undez Medicare or Medicaid. The statute is very broad, covering indirect or
covert forms of remuneration, bribes, kickbacks, and rebates as well as direct or overt
ones. Unlike most applications of the statute concerning Medicare compensation
arrangements, the focus here is on remuneration made to hospitals Lom physicians.

The case law makes clear that the statute's proscriptions apply to those who can
materially influence the flow of Medicare and Medicaid business. Hospitals are in
such a position with respect to hospital-based physicians, since they typically can name
who will be the recipient of the flow of business generated at the hospital. The use of
influence to steer health care business was the subject of a case decided in the First
Circuit, U.S. Court of Appeals. In United States v. Bay State Ambulance and
Hkpital Rental Service. Inc., 874 F.2d 20, 33 (1st Cir. 1989) a hospital employee,
John Felci, was convicted of receiving illegal payments to influence the hospital's
decision as to which ambulance company should receive the hospital's ambulance
contract.

Three other significant cases have interpreted the statute. In United States v. Greber
760 F.2d 68, 69 (3rd Cir.), cert. denied, 474 U.S. 968 (1985) the Court held that, "if
one purpose of the payment was to induce future referrals, the Medicare statute has
been violated." The reasoning in Greber was adopted by the Ninth Circuit Court of
Appeals in the United States v. Ka3871 F.2d 105 (9th Cir. 1989.) In           the Court
found that the statute is violated unless the payments are incidentally attributable to
referrals.

In United States v. Lipkis 770 F.2d 1447 (1985), the Ninth Circuit Court of Appeals
reviewed an arrangement between a medical management company which provided
services to a physician's group and a clinical laboratory. The laboratory returned 20
percent of its revenues obtained from the physician group's referrals to the
management company. The defendants alleged that these payments represented fair
compensation for "specimen collection and handling services."   m.     at 1449. The court
rejected this tlefense, noting "the fair market value of these services was substantially
less than the [amount paid], and there is no question [the laboratory] was paying for
referrals as well as the descriied services." _ b i d Thus,applying the reasoning of the
Ninth Circuit Court of Appeals in Lipkis, an inference can be drawn that illegal
remuneration occurs when a contract between a hospital and hospital-based physicians
calls for the rental of space or equiptnelli or provision of professional senices on
terms other than fair market value.

If a provider's conduct falls within the purvkw of the statute, it can be prosecuted
unless the conduct meets a statutory exception or regulatory "safe harbor." 56 Fed.
Reg. 35952 (July 29, 1991).
                                 FINDINGS
Given the relationship between a hospital and its hospital-based physicians, contracts
which require the hospital-based physicians to split portions of their income with
hospitals are suspect, although not per se violations of the statute. In some cases that
we have reviewed, there is little basis to require hospital-based physicians to turn over
a percentage of their earnings to the hospital. In addition, under Li~kis,a court may
draw the inference that a direct payment from a hospital-based physician to a hospital
is made for an illegal purpose when the amount of the payment cannot be justxed
based on the amount of services the hospital renders under the contract with the
physician.

We have reviewed agreements that provide payments or remuneration to hospitals far
in excess of the fair market value of the services pmvided by them. Because these
arrangements may violate the statute, disclosure of the terms of these agreements are
rare. Therefore, it is very di£ficult to establish the prevalence of these agreements.
Several medical societies and anonymous parties have shown us the following contract
provisions without identlfylng names and locations:

       A hospital provides no, or token, reimbursement to pathologists for Part A
       services in return for the opportunity to perform and bill for Part B services at
       that hospital.
            4
       Radiologists must pay 50 percent of their gross receipts to a facility's
       endowment fund.

       Thirty-three percent of all profits above a set amount must be paid by a
       radiology group to a hospital for its capital improvements, equipment, and
       other departmental expenditures.

       A radiologist group was required to purchase radiology equipment and agreed
       to donate the equipment to the hospital at the termination of the contract.
       The hospital has an unrestricted right to terminate the contract at any time.

       When net collections for a radiology group exceed $230,000, 50 percent is paid
       to the hospital, and the hospital reserves the right to unilaterally adjust the
       distniutions if it determines that the physician group has not fulfilled the terms
       of the contract.

       A radiologist group pays 25 percent of the profits exceeding $120,000 tc the
       hospital for capital improvements. Fifty percent of the profits exceeding
       $180,000 go to this purpose.

       A radiology group pays for facilities, services, supplies, personnel, utilities,
       maintenance, and billing senices furnished by the hospital on a fee schedule
       that begins at $25,000 for 1989, and rises to $100,000 by 1993. Payments are
       due only if the radiologist's gross revenue exceeds $1,000,000 in the previous
       year.

A betermination of whether these agreements are illegal requires an entire review of
the contract and the relationship between the parties. In addition, it is recognized that
at some income levels, agreements which require physicians to turn over a percent of
their income over a threshold amount, may approximate the fair market value of the
services the hospital provides. This fact may diminish our enforcement concerns.

All of these samples appear to violate the statute because they provide compensation
to the hospitals that exceeds the fair market value of the services the hospitals provide
under the contracts. It also appears the remuneration is intended to provide the
hospital-based physician with referrals from the, other physicians on the hospital's
medical staff.

These potentially illegal financial arrangements may have several unfortunate results.
Hospitals may award the exclusive contract based on improper financial considerations
instead of on traditional considerations centering on the professional qualifications of
the physician. In addition, the remuneraticn gives hospitals a financial incentive to
develop policies and practices which encourage greater utilization of the services of
hospital-based physicians payable under Medicare Part B. Hospital-based physicians
faced with lowered incomes may also be encouraged to do more procedures in order
to offset thqpayments to the hospitals. These problems are among the recognized
purposes of having the anti-kickback statute on the books in the first place.

Illegal arrangements may also complicate the developinent and updating of physician
fee schedules. Physician practice costs could be artificially i d a t e d by hospitals and
physicians that enter into arrangements not based or, frk market values.
                   RECOMMENDATIONS
The HCFA should instruct its intermediaries to: (1) notify hospitals about potential
legal liability when they enter into agreements not based on the fair market value of
necessary goods and services exchanged; and (2) refer cases similar to the examples
given above, or any other suspect arrangements to the OIG for possible prosecution or
sanctions.

To avoid potential legal liability, all contracts between hospitals and hospital-based
physicians should comply with all the safe harbor provisions that may apply under the
contract between the parties. Of particular importance are the safe harbors that
protect payments for personal senices and management contracts and for services of
bona fide employees. 42 CFR § 5 1001.952(d) and (i); 56 Fed. Reg. 35985,35987. It
is noted thar in some of the safe harbor provisions, we require that payments must be
consistent with "fair market value." The regulation explicitly provides that safe harbor
protection is not available where any part of the payment takes into account the
volume or value of referrals or business otherwise generated by either party. This
restriction is necessary because such payments directly violate the statute.

HCFA and Industry Comments on Eader Version

In response to an earlier draft of this report, we received comments from HCFA, the
American Hospital Association (AHA), and the College of American Pathologists
(CAP). T~~!HCFAcomments are included in appendix A. The AHA comments are
included in appendix B, along with our response to these comments, and AHA'S views
on our response. Th.z CAP comments are included in appendix C.

In response to thess comments, we have (1) clarified the legal basis for our discussion
and (2) deleted sax recommentation that carriers identify suspect arrangements.
APPENDIX A
  HCFA Comments
          DEPARTMENT OF HEALTH 8 HUMAN SERVICES                                  A
                                                                                 =
                                                                                 -                        I


                                                                                 Memorandum
Date      - MAY 2       1991
From      '   Gail R. Wilensky, Ph.D. L1
                                       11
                                        3
                                         I
              Administrator
Subject
              OIG Management Advisory Repon: "Fiiancial Arrangements Between
              Hospitals and Hospital-Based Physicians," OEI-09-89-00330
To
              The Inspector General
              Office of the Secretary


                    We have reviewed the subject management advisory report which alerts
              HCFA to potential violations of the anti-kickback statute of the Social Security    .   -
              Act The report identifies as potential violations those financial arrangements
              between hospitals and hospital-based physicians which either require physicians
              to pay more than the fair market value for services provided by the hospitals or
              which compensate physicians for less than the fair market value of goods and
              services that they provide to hospitals.

                    The report recommends that HCFA instruct its contractors to (1) notify
              physicians and hospitals about the potential legal liability when they enter into
              agreement&not based on the fair market value of necessary goods and senices
              exchanged; and (2) refer identified cases to OIG for possible prosecution or
              sanctions. Our comments on these recommendations, as well as technical
              comments on the report, are attached.

                    Thank you for the opprturiity to comment on this management advisory
              report. Please advise us whether you agree with our position on the report's
              recommendations at your earliest convenience.



              Attachment

                         0
         Comments of the Health Care Financing Administration on the
                                                 -
         OIG Manaeement Advisorv R e ~ o r t "Financial Arraneernents
                                                             -
              Between Hospitals and Hospital-Based Phvsicians"
                             {OEI-09-89-00330)



OIG Recommendation 1                                                .
HCFA should instruct its contractors to notify physicians and hospitals about
potential legal liability when they enter into agreements not based on the fair
market value of necessary goods and services exchanged.

HCFA Response

We do not disagree with a recommendation that physicians and hospitals be
                                                                                        -   -
notified of the potential legal consequences that can follow a violation of the
anti-kickback provisions. However, OIG, not HCFA, is responsible for
monitoring compliance with the anti-kickback statute, investigating potential
violations, and initiating legai action against parties to alleged illegal kickbacks.
Therefore, we believe that it would be more appropriate for the OIG to issue
this warning as a fraud alert, rather than pfacing this responsibility on the
Medicare contractors.
            f
OIG Recommendation 2

HCFA should instruct its contractors to refer identified cases to OIG for
possible prosecution or sanctions.
                                                                               -
HCFA Response

We believe that it would not be meaningful for HCFA to attempt to implement
the above recommendation on the basis of the very limited information given in
OIG's report. The report gives no suggestions as to what pwcdures &c'
contractors shonld use to detect and identify violations in the arrangements
between hospitals and hospital-based physicians. This poses particuIar
difficulties nrrw that the contractors, with the move away from cost-based                      -   .

reimbunempnt, no longer routinely audit the agreements between hospitals and
physicians.

More importantly, no regulations have been issued to define what specific
agreements would be illegal under the anti-kickback statute. Moreover, the
criteria discussed in the &port cannot be easily applied to a concrete analysis of
Page 2

specific agreements, and the report draws no clear line between legd and illegal
arrangements. For example, the report describes an arrangement where a
hospital provides no, or token, payback to pathologists for Part A ~ewiccsin
return for the opportunity to perform Part B services at that hospitaL OIG
gives this as an example of a possible violation of the anti-kickback statute.
However, it is unclear from this repon how such an arrangement is to be
distinguished from those in which a physician provides other &es of suvieu to
a hospital in connection with the physician's admitting privileges. Physicians
have routinely furnished services to hospitals, such as serving on committees,
performing administrative functions or supporting a hospital's graduate medical
program, in return for admitting privileges and the right to practice at those
hospitals. Without clearer and more specific Iegal criteria, we wouId be
reluctant to ask the contractors to take on the responsibility of actively
attempting to identify violations of the anti-kickback statute. However,          .-
contractors do already operate under an instruction to report any activities they
come across while carrying out their audit function that they believe to be
potentially ilIegal.

General Comments

     o    HCFA is currently developing demonstrations which involve
          innovative financial arrangements between hospitals and hospital-
          b e d physicians. For example, the Medicare Participating Heart
          Bypass Center and the Cataract Surgery Alternate Payment
          demonstrations will tcst the conceyt of a negotiated bundled payment
          combining hospital, facility, and physician services for coronary artery
          bypass grafts (CABG) and cataract procedures, respectively. OIG
          representatives actively participated in the design of each of these
          demonstrations and have assured HCFA that they do not consider
          either of them to be in violation of the anti-kickback statute. Also,
          under HCFA's point-of-service praposd, contractors will establish and
          run preferred provider r,ttwsrks. These contractors will negotiate
          financial agreemeno for high volume procedures such as CABG.
          OIG should make clear in this report that such arrangements would
          not mstitute a potential violation of the anti-kickback statute.

     o    n e American Hospital Association (AHA) has sent us a copy of
          their March 11, 1991 letter to OIG concerning this report. AHA
          claims that OIG did m t take the hospital perspective into account
          when drafting the report. The letter raises several important points
          which should be addressed by OIG in the final report.
Page 3


    Technical Comments

    o    We believe that the background discussion of hospital-based
         pathologists on pages 1 and 2 is vague, and even misleading, when it
         explains how Medicare pays for the ciinicai laboratory scmces
         pathologists perform for hospital inpatients. ~ener*, pathol0@~
         do not order, perfom or interpret the findings of clinical laboratory
         tests, The pathologist's role in connection with these s c ~ c e sis
         supervisory in nature and the associated costs are payable as a
         senice to the hospital, either through the diagnosis related p u p
         (DRG)payment or on a reasonable cost basis in hospitals excluded
         from the prospective payment system (PPS). The report's description
         of payments for the technical component of anatomic pathology         --
         xm'ces implies that a separate payment is made to the hospital
         rather than indicating that payment for the tcchni'cal component is
         made through the DRG amounts.

    o    We also believe that the report should address the practical
         differences in Medicare's ability to respond to the recirculation of
         physicians' fee revenue in PPS hospitak as compared with hospitals in
         which inpatient services are payable on a reasonable cost basis.
-
    APPENDIX B
      AHA Comments
Richard P. Kusserow
Page 2
March 11, 1991

A.        fraud and abuse analysis is inavvropriate because
        contracts between hospitals and hospital-baaed
        physicians do not result in overutilisation of Hedicare
        services.


The office of the Inspector General is charged with
investigating potential violations of the Medicare fraud and
abuse "anti-kickbackw statute. The puuose of-the
anti-kickback law is to prevent-overutilization of Medicare
s e r v i w e r & - y preventing unnecessary expenditures of
fed=       funds. Inducement of overutilization as a result of
fzancial arrangements triggers involvement by the Inspector
General in those arrangements.
AHA does not understand how hospital contracts with
hospital-based physicians such as those described in the report
can be viewed as encouraging overutilization of services. .In
order to apply a fraud and abuse analysis, the OIG would need
to show that: 1) hospitals refer patients to hospital-based
physicians, and are able to order services for patients; 2)
hospitals (rather than other physicians) have the ability to
drive the volume of hospital-based physician services utilized;
and 3 ) hospitals refer more patients to the hospital-based
physicians, directly or indirectly, as a result of contracts
         p
with the hysicians.
The reality of delivering hospital-based physician services
reveals that these premises are not true. With r-eg.rrd to a
hospital's ability to refer patients, the advisory report
itself states that specialists obtain referrals from other
physicians within the hospital environment. The hosgital's
role in ordering hospital-based physician services is tenuous.
For example, emergency room physicians treat patients (and
order additional necessary services) as individuals present at
the emergency room; the patients are not referred t.o the
emergency physicians.
We believe that incentives for overutilization-do not exist
because contracts with hospital-based physicians do not impact
utilization. Consequently, the arrangements referenced in the- - -   --
report do not result in unnecessary costs to the Medicare
program. 'The following words of an AHA member hospital
administrator illustrate our position:

        Why, way tell., should the Federal Government care
        about this Xssue when there is no direct relationship
        between patient flow and hospital-based physicians in
        connection with these contracts, nor indeed will the
        Federal Government be spending one nickel more whether
        the physicians agree to provide support to hospitals or
        whether they do not.
Richard P. Kusserow
Page 3
March 11, 1991

B.            The advisorv report offers no evidentism basis for q
              potential fraud and abuse violation.

                                              -
The advisory report offers no e v i d ~ f . s u.-e ~ t i ~ ~ a t i oorn ,
even suspected overutilization, in connection y h h -
hospital-based physician contracts. While the report states
that the contracts give hospitals "a f.inanr.i;ll-incentive to
develop policies-anhp~actices-which e-ncouragegreater
utilization of the services of hospital-based physicianstW it
presents no basis for that conclusion and includes no examples
of such potentially abusive practices.
AHA is aware of studies documenting higher utilization by
referring physicians.who own the equipment or facilities
furnishing the referred serrices as compared to physicians who
do not; however, AHA is not aware of similar &udies..on
hospital-based-physicians* Moreover, the report does not show
     __..c-

any--relationshipbetween volume of serrices where such
arrangements exist as compared to volume where other physician
compensation arrangements exist, or where a hospital purchases
its services outside the hospital (for example, from a
free-standing laboratory or imaging facility)        .
The Office of Inspector General's authority to investigate .
financia4 relationships between hospitals and physicians is
predicated upon overutilization of M-e-dicareservices resulting
from a v ~ ~ o a r r p f - U ianti-kickback
                               Se           law. -- Absent evidence of
potential overutilizatio?, AHA believes M a t interference in
the hospital/physician contracting relationship is
inappropriate.
                                -
                                .
                                2




C.            The advisory report fails to offer a hospital
              perspective on h~p~ital-based physician contracts.

 The advisory report indicates that the OIG's analysis is based
 upon contract provisions furnished by "several medical
 societies and anonymous parties. " Such a one-sided perspective
 on business arrangements that-allegedly violate the fraud and       -
 abuse laws does not substantiate the accusations made in the
 report. In November 1990, AHA initiated a meeting with OIG
 staff to discuss +he issue of hospital-based physician
 contracts. At that meeting, AHA staff was informed that the
 OIG was developing a memorandum to HCFA and w a g ~ s s u r e dthat
-- -- hospital per~p~ect iverould-be considered, yet that
 the
                       -
 perspectiire -is not reflected in--the-xeport.
                                           - -
Richard P. Kusserow
Page 4
March 11, 1991

OIG staff has indicated to AHA that it has no basis for knowing
to what extent the arrangements referenced in the memorandum
actually exist within the hospital field. We understand that
tlie medical societies and other.parties who provided the OIG
with examples of contractual provisions are neither willing to
make the entire contracts public, nor willing t.0 participate in
a survey to determine the extent and nature of the contracts.
Indeed, the advisory report itself states that disclosure of
the terms of theseagreements is "rare."    One must question the
motives of parties who are willing to provide only partial
information on arrangements being characterized as potentially
illegal.
In fact, hospitals generally need to accommodate hospital-based
physicians, especially in rural areas, in order to kees-
physicians available and maintain necessary medical coverage
for services. For example, some hospitals must guarantee
physicians a minimum number of visits or revenue due to a
limited pool of potential patients. In addition, physicians
often desire percentage arrangements in order to avoid
excessive expenses during        months, and occasionally.
demand more in contract negotiations than a hospital would
normally provide for hospital-based services. Physicians who
do not obtain desired terms are free to, and frequently do,
choose to operate freestanding facilities rather than be
hospital-@ased.  Respective parties' "bargaining positionsn
depend entirely on circumstances and locale and cannot be
generalized.
                                                            -C   -
The advisory report lists teaching physicians among the
hospital-based specialists whose arrangements are potentially
 illegal. As a common practice in most teaching facilities, ..
revenues generated for patient care services are paid into
physician fee pools from which physicians are compensated and
the medical centers receive funds. HCFA has addressed the
 issue of physician fee pools in the context-6TMZdieare
-reimbursement at various times over the past 25 years, -<See,
 for example, Intermediary                 7 0 - 2 , HCFA Memorandum
of October 1979 to Chicago Regional Medicare Director, HCFA
Letter of February 1980 to Blue Cross ~ssociatian,and HCFA
Letter of May 1984 in response to questions concerning fee
pools in the teaching setting.) In none of those-instances was-
the suggestion of a fraud and abuse violation raised. To now
question the legality of such arrangements would be to suggest
that some of this country's premier health institutions have
been engaged in criminal conduct for years.
Finally, the release of the advisory report is having an
immediate and detrimental effect on hospital/physician
relationships--which only hints at the d~kruptionthat would
                               ,/
Richard P. Xusserow
Page 5
March 11, 1991

result if further action is taken without consideration of the
hospital position. Some physicians have already been
instructed that "[u]se of the document should effectively serve
to?counter hospital kickback demands during contract
negotiations or renegotiations."                (mLetter dated February
13, 1991 from American College of Radiology to .members.) Even
if research reveals evidence of potentially abusive
arrangements between hospitals and hospital-based physicians,
the e     ' v e _ ~ l e t . c a s L b y - t h er-e~p~o~e would compass
c-ntracts                which have            effect-oX-*e    Medicare
program.


        The qovernment has ad3ressed the issue of hos~ital
        revenues from hospital-based phvsicians8 services
        extensivelv in the past and has never viewed these
        arransements aa potential fraud and abuse violations.

The report states that hospitals "recentlyw began to view
hospital-based physicians as "potential new revenue sourcesen
AHA does not understand the basis for this accusation, in light
of the Medicare program's 25 year history of recognizing
circumstances under which hospital-based physicians8 patient
care revepues may accrue to the benefit of hospitals. Since
the inception of the Medicare program in 1966, hospitals have
received revenues from their hospital-based physiciansf
services, and the Medicare progray bas been aware of and has
interpreted the implications of such revenues. Yet the January
1991 OIG memorandum represents the first instance of such
revenues being viewed as potential ~Aolationsof the fraud and
abuse statute (which was enacted in 1972 and amended with the
anti-kickback provisions in 1977).
Government communications both before and after enactment of
the anti-kickback provisions-,baseaddressed questions about
hospital-based physician arrangements without ev.er.questioning
the legality of those arrangements under the fraud and abuse              ,
laws. In addition, HCFA has published both proposed and final
regulations that clearly show the government was aware of
hospital benefit due to hospital-based physician revenues, and;
nevertheless, clearly reflect no fraud and abuse concerns.
For example, a 1984 letter from HCFAfs Director of the Division
of Audit and Payment policy addressed an arrangement under
which physicians pay to hospitals amounts unrelated to the
hospita18s operating or capital costs for their use of the
hospital. (Letter dated November 14, 1984, Ref. No. FQA-581.)
Another letter from HCFA8s Bureau of Eligibility, Reimbursement
and Coverage to the American College of Radiology discussed
hospital initiatives to require radiology groups and other
Richard P. Kusserow
Page 6
March 11, 1991

physicians to return to the hospital some portion of their
professional revenues. (Letter dated November 15, 1986.) In
nqither of these communications, which respond to open
idquiries by providers and other interested individuals, does a
government official raise fraud and abuse concerns.
Even more illustrative is the fact that HCFA r&ulation notices
have discussed payments to hospitals by hospital-based
physicians without considering whether these payments are
illeaal under the anti-kickback statute. The 1983 regulations
&tifled "Payment
          .     -        for Physician Services Furnished in-
~ o s ~ i t a l,-Skilled
                  s       ~Crsin&-Faci-lities and-Compr-&ive
0ut;atient ~ehabilitation-Facilitiesnreflect-that eight years
agor the government was aware that some hospitals were charging
hospital-based~h~cians-forbilling services, office expenses

In addition, HCFA was aware that the hospitalsf charges to
their hospital-based physicians were in some cases based on a
percentage-of the physiciansf ~ e c t i o n s ~ ~ - ~ T lfact
                                                          iis
consdidicts the 1991 OIG report8s r ~ ~ ~ n ~ a that     t i o n
"contracts between hospitals and hospital-based physicians
should: ... be unrelated to physician income or billings."
the 1983 rules HCFA reiterates its earlier position, within the
                                                                  In
context of physician compensation allocation, that physicians
and hospftals are "free to negotiate the kind of financial
agreement, such as salary, fees or compensation based on a
percentage of either gross or net charges, that best.suits
their c;ir~uastances.n (Vol. 48, No. 42, Fed.    m.        at p. -
89244925--)   Indeed, the final regulations themselves recognize
&at papents may be returned by a hospital-based physician to
the hospitzl. (See 42 C.F.R. Sec. 405.481(d)(2).)
The government more recently recognized that hospital-based
physicians may return a portion of their patient care revenues
to their hospitals in HCFA regulations proposed on February 7,
1989. In the preamble to the proposed rule, HCFA addresses
both provider/physician agreements under which physicians
return a portion of the realized charge revenue to providers
and agreements under which providers retain a portion of
revenues received. HCFA states the following in its discussion
                                                             - --      -
of allocation of compensation costs:

        The revenues received by the provider in either of,
        these situations might be utilized by the provider or
        related organization to defray the costs of medical
        educational activities, patient care, or nonpatient
        care related activities, including the costs of
        services furnished by physicians in these areas. (Vol.
        54, No. 24, Fed. m. at p. 5955.)
Richard P. Kusserow
Page 7
March 11, 1991

AHA offers the foregoing historical examples to show that
arrangements under which hospitals may binefit from
hospital-based physician revenues are not a "new* idea, as the
ad@sory  report indicates. The government has addressed these
arrangements in the Medicare reimbursement context numerous
times in the past, without identifying fraud q d abuse
concerns. Neither Congress nor HCFA contemplated that
financial arrangements whereby hospital-based physicians
provide revenues to their affiliated hospitals constitute
nkickbacku schemes under the fraud and abuse laws.


E.      p e n if such arranqamants were found to be potentiat
        violations of the fraud and abuse law, the OIG ehould
        publish notice of such a chanQe and allow all providers
        an opportunitv to comment.

Even if possible fraud and abuse violations could be validated,
it would be appropriate for the OIG to adhere to certain
administrative procedures before declaring such arrangements
potentially illegal. The history of financial arrangements
between hospitals and hospital-based physicians described above
shows that the recommendations in the advisory report, if
followed, would represent a .=astic c h a n ~in government
policy. Moreover, any possible abuse resulting from such
arrangements would be minimal, while the potential sanctions
are severe. If HCFA is to view these long-standing
arrangements in a new light, the appropriiLe action for the OIG
would be to gather evidence of abuse, provide notice to the
health care community, and allow an opportunity for providers
(hospitals and physicians alike) to comment on these allegedly
suspect arrangements.
Congress enacted the anti-kickback provisions of the fraud and
abuse statute in 1977. In 1987, Congress directed the Office
of the Inspector General to provide guidance in interpreting
the statute as it relates to provider arrangements involving
Medicare services. The Department of Health and Human Services
responded to that directive by proposing "safe harbor"
regulations, which have - y e t t a b e issued i n final fo m . --
Hospitalibased physician contracts, as a broad category of
potentially violative arrangements, were not addressed in those
proposed regulations. The OIGts use of a management advisory
report to notify the health care ?omunity that an expansive
group of agreements pptentiXlly violates the law raises
questions of due p r o k ~ p r,o t e~c t ~     i , and proper
administrative procedure.       AHA believes that hospitals and
other providers deserve at least as much opportunity, and the
Richard P. Kusserow
Page 8
March 11, 1991

proper forum, to comment on these arrangements as
investor/referring physicians (and other providers) have been
given in conjunction with the investment "safe harborsn
proposed by the OIG.



In the K a r c h 5, 1991 seeting between the OIG and members of the
health care community, you indicated a willingness to work
openly and cooperatively with providers. AHA offers its
assistance in resolving any questions you may have about
agreements between hospitals and hospital-based physicians, and
would like to arrange a meeting with you and your staff to
follow up on- this,
                      issue.
If you or m F l m b e r s - o f y o l l r a + a f f any questions, please
contact.@!el=     DeMartino _L_202/638-1100) t           n our Washington
office, or Zohn Steiner (312/280-6510)--inour Chicago office.

Sincerely yours,


Paul C. Rettig      v
Executiv* Vice-president



CC:      Louis Sullivan, M.D.
         Secretary, Department of Health and Human Services
         Gail R. Wilensky, Ph.D.
         Administra,kor, Health Care Financing Administration
         Michael Mangano
         Off-ice of Inspector General
L
*
    4DEPARTME"'   OF HEALTH & HUMAN S E w t C E s         Otflce of Inrpectw General



                                                           WaWngton, D.C. 20x1



                                       MAY 2 0 1991



    Hr. Paul C. Rettig
    Executive Vice-president
    American Hospital Association
    5 0 F Street, NOW-
    Washington, P I C . 20001
    Dear X r . Rettig:
    Thank you for your letter of March 11, 1991, expressing varioue
    concerns of the American Hospital ~ssociationregarding the
    office of Inspector General* management adviaory report ( " m u )
    'Financial  Arrangement6 Between Hospitals and Hospital-Based
    Physicians.@ We appreciate hearing from you, and ve welcome this
    opportunity to respond to y o u concerns.
                          .    "

    As you know, thia XAR states our conclunion t h a t aome financial
    arrangements between hospitalr and hospital-based physicians
     (such ae radiologists, pathologiotr and ~nesthe~iologiato)   may            \
    violate the criminal anti-kickback mtatuta, 42 U.S.C. 1320a-
    7b(b), putting both the hospital and the phynician in question at
    risk. That-     focusses on thosa arrangemento which require much
    phy6iciansCto pay pore M a n fair market value f o r items or
    services provided by the hospitals, or vhich compensate
    physicians for       than the fair market value of g d s and
    cervices that they provide to hospitals.
    chief among your concerns are the proposition8 t h a t the
    arrangements in question (1) are not covered by the atatuta at
    all mince hoopitale do not .refera patients, and (2) have not
    been shown to result in overutilization, and in fact c&nnot
    result in overutilization. You further atat. (3) that the M R is
    inappropriate in view of numerous issuanc8s by r 3 Health
                                                          ~     Care
    Financing ~dministration (aHCFA*) in this 6tubject. matter area,
    and (4) that the nhR should be tho mubject of notice and comment
    procedures of t h e Administrative Procedure A c t .
                                                                                - -
    To summarize our views on these propositions, we firmly believe
    that in these arrangements, hospitals        in a position to
    *referw Medicare and Medicaid businesa w i t h i n the meaning of the
    statute. Second, the otatute does not require             of
    overutilization because Congress made the judgement that the
    programs should not be subject to the risk of overutilization
    created by practices which violate the anti-kickbnck rtatute.
    Third, the pronouncements of HCFA relating to reimburoement
Page 2   - Xr. Paul   C.   Rettig
issues are irrelevant t o the issue presented because they do not
purport to address fraud or abuse issues. The Secretary has
delegated the responsibility for enforcing this statute to the
O f f i c e of Inspector General (aOIGm), and we we mewing one of
our primary statutory functions in alerting EICPA and the public
at large to potentially unlawful practicea. Finally, the XAR
does not atteapt to establish a binding mle of Iav, which would
require notice and comment procedures of the Abinimtrative
Procedure Act. The KAR addresses the application of a criminal
utatute to a particular course of conduct, a matter which is not
appropriate for public notice and comment procedures.
~s you know, the anti-kickback otatute prohibits the knowing and
willful eolicitation or receipt of remuneration (directly or
                                                                        '
indirectly, overtly or covertly) in return for the referral of
businees paid for by Medicare or Medicaid. There can be no
question that a hospital is-subject to the anti-kickback statute
when it solicits or receives remuneration in oxchange for
directing the flow of business generated at the hospital. Of
course, it is the physicians practicing at t h e hospital ( a . g . ,
murgeons, neurologists, atc,) who order tadiologiot,
anesthesiologist and pathologist services for particular
patients. However. & is aenerallv t h O m a l       v u c h w
               st. a n e s t h w l - t or ratholouist will p e m

The case lqw interpreting the anti-kickback statute raakee it       .
clear that t h e statute80 proscriptions apply to those who can         ,,
~ t e a l influence
               v         the flow of Medicare and Medicaid business.
It i n not necessary for a_vi*lator to actually order the service
in question. The case of mited States v. Bay State Ambulance
pnd ~ o s ~ i t aRental
                  f     Services. Inc,, 874 F.2d 20 (1st Cir. 1989)
involved an ambulance coa~paxiy~whichdesired to renev an existing
contract with a hospital. l a e ambulance corapany gave
remuneration to one John Felci, a hospital employee. he one
member of the hospital@s ((bidw committee which made its
recommendation to the hospit&Vn CEO, Felci nubsequantly voted to
recommend approval of the contract to that ambulance company.
The ambulance company end FeIci were convicted of kickback
violations. It i s important to note M a t Felci neither generated
the "orderw to obtain a contract for an uabulanoe company, nor
did he control the decision on the award of the contract. What
the ambulance company did vas pay Felci to cucerci~ewhat          -
influence he had over the flow of program business.
            0



Similarly, hospitals are in a position to influence the flow of
business to be perfcaned by hospital-based physicians, mince they
typically can name vho the recipient($) ( L a . , the radiologist,
anesthesiologist or pathologist) of that buuinaro will be. If a
hospital were to extract $5 from a radiologist for wery
x-ray performed a t the hospital, there can bar no doubt whatever
that a kickback offense h a s ' h m committed. Yet, in many of the
Page 3   - Mr.   Paul   C.   Rettig
arrangements we have recently observed and described in detail in
the KhR, practices similar in effect to this obvious kickback are
occurring.
You also take iesue with the WAR because you contend that
 con'tracts between hospitalrr and hospital-based physicians do not
 result in demonstrable overutilization of Medicare mervicee.
 While preventing overutilization is unquemtionably one of the
-Q         of the anti-kickback ftatute, your latter implies that
 proof of overutilization i e an            of the offenae. However,
 the anti-kickback statute doem not require much proof to
 establish a violation. (See: Bav St-,        Ip. at 32, n.21) One
 reason is that overutilization is notoriously hard to police and '
 to prove. Another reason is that Congress was not only concerned
 vith prohibiting arrangements which lead to demonrtrable
 overutilization, but a l ~ ovith prohibiting arrangement8 which
 have the p o t e n t w for cauaing overutilization. In other words,
 Congress aade the assumption'that health care provider8 vould
 respond to financial incentives, and the potential for
 overutilization clearly exists whenever a party is being paid for
 the referral of program-related business. O u r health care
 programs and their beneficiaries mhould not be subject to this
 increased rink of overutilization.
Again, by selecting the physician who vill serve au the               y
hospital's radiologist, pathologist, mesUSesiologist, etc., t h e
hospital is in the position of determining vhich physician will*
receive thy referrals of the hoepital'm program-related buuiness..,
The underlying concern expressed in the KAR is that some
hospitals use this position of power to create rituations which
can cause overutilization. For example, it a hoapital receive- - -
3 0 percent of a hospital-based radiologist's billings over
$250,060, the hospital has a otrong incentive to do whatever it
a n eo increase t h e use of those ~ervicesin the hospital. Tqe      ;

hospital can, by subtle or not-so-subtle aeane, cause that to
happen. For instance, under the guise of *defensive m e d i ~ f n e , ~
the hospital could encourage the increased use o f diagnostic
x-rays.
In addition, where such an arrangement i 6 initiilly imposed on a
radiologist, the arrangement could potentially cause a
radiologist to attempt to increase the amount of mervicee helshe
renders in order to make up the lost income. Radiologists could           --
accomplish-this through normal aonsultation w i t h the other
physicians practicing in the hospital, e . g . , suggesting or
encouraging additional radiological S ~ N ~ C ~ P .
With regard to your discussion of HCFA1s regulations an& other
issuances, enforcement of the anti-kickback ftatute i a primarily
the responsibility of OIG. The HCFA issuances do not purport to
address fraud and abuse insues in general or kickback concerns in
specific. On the other hand, it is OIG's obligation to respond
Page 4   - Mr.   Paul   C.   Rettig
to potential kickback violations as they come to our attention.
It appears that changing conditions in the health care industry
have led to the recent proliferation of contracts betveen
hospitals and hospital-based physicians which cause kickback
concerns. We would be remiss ifwe failed to addresl~a potential
legal violation which is potentially harmful to our health care
programs and their beneficiaries.
With regard to your concerns that the KAR doeo not include the
hoapital industry's perspective and should have been published
with opportunity for notioe and comment, we aust point out that
the     is not a reguhtion interpreting the anti-kbkback
statute, like the .safe harbor. regulations. Rather, the XAR is,
designed to furnish notice to HCFA and the publio regarding a
mignificant problem area under the anti-kickback statute. It is,
of course, one of OIG1o central duties under t h e Inspector
General A c t Of 1978, 5 U.S.C. App 3, to notify the Department and
w e public about possible viohtionn of crininal law. The point
of this document was not to present variouo perspectives in an
attempt to gain consensus, but rather, to ex8rcise our law
enforcement functions to call attention to an abuse which we
believe has the potential for causing ham. An alternate way of
giving the provider community notice would be simply to initiate
prosecutions or exclusion actions. We are quite sure that the
provider community would prefer to have notice of our views first
in the form of a MAR or a Fraud Alert.                               T




Again, the touchstone for analysis in the KAR is that the concept
of fair a a ~ k e tvalue ahould govern remuneration vhich flows from "
hospital-based physicians to the hospital. It io hard to
understand vhy this iu a radical or onerous concept, particularly
if it is necessa to effectuate t h e latent of Congress as
                   =I
expressed in a cr minal statute.
I hope this letter adequately explaXak Q J ~response to your
concerns with regard to the M R . I f you vieh to discuss this
matter further, please contact D. Hccarty Thornton, Chief Counsel
to the Inspector General at (202) 619-0735.
                                      Si.ncezely yours,



                                      Richard P. Kusserow
                                      Inspector General
cc:   Gail R. Wilensky, Ph.D.
      Administrator,
      Health Care Financing Administration
                                                               - ..- !   -   "

                                                                             .
                                                                                 ....   P
                                                                                        - -
                                                                                            ,


    Capitol Place, Building U 3
    50 F Sweet, N.W.
    Syire 1 100
    Washington, D.C. 20001
    Telephone 202.638- I 100                                             m
                                                                     I'DIG
                                                                                                J
     FAX NO. 202.626-2345
                                                                                                A
                                                                     NGAS
                                                                     DIG-= .
                                                                     DIG41
                                                                                                y
     HAND-DELIVERED
                                                                     m-mre
                                                                     OGC/IQ
                                                                                                7
     Richard P. Kusserow
c
     Office of Inspector General
     Department of Health and Human Services
     330 Independence Avenue, S.W., Room 5246
     Vashington, D.C. 20201


     September 6, 1991


     RE:                      Financial Arranqements Between Hosoitals and Hospital-Based


     Dear Yr. Kusserow

     Thank yo4 for providing us with a draft of the OIG management advisory report
     (MI on financial arrangements between hospitals and hospital-based
     physicians (HBPs), and for the .opportunity to share our comments with you.

     At the July 12, 1991 meeting between your office and health care field
     representztives, AHA and other hospital groups raised several fundamental
     issues concerning relationships between hospitals and hospital-based
     physicians. We are disappointed that the revised M , while addressing some
     minor points, does not contain any substantive changes reflecting those
     concerns. Bsspitals and the OIG essentially view hospital/HBP relationships
     differently: where the OIG sees a potential fraud and abuse violation and
     kickoack scheme, hospitals see an agreement to enter into a mutually depend~nt
     relationship.

     First and foremost, we believe that the underlying premise in the .W is
     mis~uided. As AHA and others indicated at the July 12 meeting, the .notion .
     that hospitals direct the flow of business in a manner vhich violates the
     fraud and* abuse statute reflects a misunderstanding of the traditional
     hospital/hospital-based physician relationship. Yost SBPs request and receive
     exclusive contracts to provide services at a hospital; hospitals must ?r?vide
     the contracts to obtain health care for their patients. The underpinnings of
     the ?lAR, which must be accepted if a kickback analysis is to apply, are that
     hospitals enter these agreements and thereby "name who will be the recipient
     of the flow of business" (in efEect, refer patients to the physicians)
     exchange for any payments to the hospital from revenues generated by virtue of
     the contract, and that the volume of "business" varies depending on the nature
     of the financial relationship. We flatly reject these premises.
Richard P. Kusserow
                  -
September 6, 1991 Page 2


Second, the revised MAR fails to fully acknowledge that the relationship
between hospitals and hospital-based physicians is mutually dependent, and
that, more often than not, hospitals find it necessary to accommodate
physicians' financial requests in order to secure needed physician services
f6r their patients. (The MAR states that hospitals are "somewhat dependent"
on HBPs, but goes on to discuss how hospitals have reduced compensation or
obtained additional payments from the physicians. Yet the LIAR fails to
discuss the other side of the equation, namely, the increased demands many
physicians are placing on hospitals in light of changing physician payment
schemes and economic conditions.) The MAR assumes that hospitals hold the
bargaining power and that HBPs, dependent upon the hospitals, must accede to
hospital demands in order to ensure a viable practice. This perception does
not reflect the reality of furnishing health care semices.

Third, with one exception, the examples of agreements listed in the :YAR are
identical to those in the original draft. As discussed at the July 12
meeting, assessment of these provisions is simply impossible without complete
information about the agreements. Nowhere does the .M identify what services
the hospitals provided to physicians in exchange for the payments indicated.
Rather, the MAR categorically states that the payments are "far in excess of
the fair market value of the services provided," without presenting any
evidence of this. (AHA repeatedly has requ.ested the opportunity to review the
contracts, with identifying information deleted, but the OIG repeatedly has
refused.) 1n.light of the OIG's acknowledgement that review of the entire
contract is necessary and that percentage amounts may approximate fair market
value, presenting these provisions in isolation is, at the very least,
misleading?

Finally, the revised MAR, like the original draft, indicates that the
remuneration in the arrangements listed "gives the hczpitals a financial
incentive to develop policies and practices which encourage greater
utilization" of services. In response to questions about this statement, OIG
staff stated that they know of no examples or inciaents in which such hospital
policies exist. Neither does AHA.

AHA appreciates the opportunity to provide these comments and the OIG's
willingness to attach our March 11 letter and this letter as appendices to the
final W. If you or members of your staff have any questions or wish to
discuss our comments further, please contact Gaslynn DeMartino in our
Washington office (202/638-1100) or John Steiner in our Chicago office
(3121280-6510).
                                                                         -     -




cc: Gail R. Wilensky, Ph.D.
    Administrator, Health Care Financing Administration
APPENDIX C
  CAP Comments
                                                                        CAP WashingtonOffice
                                                                        1 101 Vermont Avenue, NW - Suite 604
College of American Pathologists                                        Washington. DC 20005-3546
                                                                        2021371-6617     2021371-0028(FAX)
325 Waukegan Road         NorLhneld,IL 60093-2750



  February 22, 1991



  Richard P. K w e r o w
  Inspector General
  Department of Health and Human Services
  330 Independence Avenue, SW
  Washington, D C 20201

  RE:   Management Advisow Report

  Dear Mr. Kusserow:

  The College of American Pathologists strongly supports and endorses your January 31, 1991,
  Management Advisory Report relating to hospital arrangements with hospital-based physicians
  (HBPs). The report highlights a problem of growing significance under the Medicare program. A
  growing number of hospitals have improperly retained the portion of D R G payments which covers the
  Part A services of HBPs in return for granting the hospital "franchise" to the HBPs. Other hospitals
  are charging HBPs for supplies and services that are hospital operating costs covered under Part A
  and paid t h ~ o u g hthe DRG rate. The wide distribution of the Management Advisory Report,
  combined with enforcement actions against those hospitals which require HBPs to provide free or
  deeply discounted Part A services, should help curb this abuse of the Medicare program.

  Pathologist directors of hospital laboratories spend a significant amount of time and effort in
  providing senices that are needed to assure that quality laboratory services are available to patients.
  Clinical pathology services of general benefit to patients (e.g., quality control, a s s u r h ~labratory
  compliance with federal and state standards) are to be paid through Part A Increasingly, a growing
  number of hospitals have eliminated all o r most of the compensation paid to the pathologists for these
  important P a n A s e ~ c e s .Some hospitals extract remuneration from the pathologist in the form of
  free o r deeply discounted clinical pathology services. The hoSpital demands this remuneration in
  exchange for the pathologist's "franchise" to provide and bill for anatomic pathology senices for
  hospital patients. The College has long argued that these arrangements are a ~ Y e n t i a violation
                                                                                                   l        01
  the fraud and abuse provision, 42 USC 51320a-7b@). The College strongly s u ~ p t OIG's       s      commit-
  ment to scrutinize and attack such improper arrangements.

  In addition to the fraud and abuse concerns, there are a number of public policy issues posed by these
  arrangement;r. First, pathologists' ability to assure that quality laboratory services are available to
  patients is severely compromised. Services that are essential to the appropriate diagnosis and
  treatment of patients are placed at severe risk because adequate resources to support their provision
  are withheld.

  Second, hospitals which refuse to pay for clinical pathology services profit unduly under the DRG
  prospective payment system. As explicitly recognized in the Management Advisory Report, a portion
  of Medicare's D R G payments to the hospital are for clinical pathology services. Since Medicare is
College of American Pathologists
    Richard P. Kusserow
    February 22, 1991
    Page 2



    paying for clinical pathology, a hospital that refuses to pay pathologists a fair amount for these
    senices plainly is extracting an inappropriate profit a t the expense of the pathologists.

    Third, the arrangements discussed in the Management Advisory Report effectively unbundle senices
    that are covered by DRG payments. The hospital forces pathologists inappropriately to incur costs
    that, under the Medicare program and common practice, are the responsibility of the hospital. The
    College believes that such hospital arrangements amount to the unbundling of senices that are
    reimbursed by the DRG program in violation of 42 CFR 941250.

    In order to eliminate the abuses associmd with hospitals forcing pathologists to provide free or
    deeply discounted clinical pathology s e ~ c e os r to pay for 'support s e ~ b already
                                                                                    S       paid through Part
    A, the College recommends that the OIO prosecute hospitals that persist in maintaining abusive
    arrangements. Pathologists and the College have vigorously opposed these abusive arrangements for
    years. Prior to the issuance of the Management Advisory Repon, some pathologists were forced to
    accept one-sided contracts from hospitals. The College strongly believes that the OIG should not
    prosecute those HBPs who are forced by the hospital to enter into these arrangements.

    Once again, the College endorses your January 31, 1991, Management Advisory Report. Wide
    dissemination of the report, together with enforcement actions against hospitals that continue to
    engage in the proscribed behavior, should help eliminate the abusive arrangements.

    Sincerely,    f



    President            U


    LR Wlmps

    cc      Gail Wilensky, PhD
    -1.00
horn   Inspector General
         Final Management ~dvisoryReport: "Financial Arrangements
     ~ I G
Subm Between Hospitals ar,d Hospital-Based Physicians," OE1-09-89-
     00330
TO     Gail R . Wilensky,'Ph-D.
       Administrator
       Health Care Financing Administration

       The attached management advisory report alerts you to the
       existence of arrangements between some hospitals and hospital-
       based physicians which potentially may be inappropriate and
       illegal under the ~edicareand Medicaid anti-kickback
       statutes, section 1128B(b) of the Social Security Act. We are
       continuing to pursue illegal arrangements where referring
       physicians receive kickbacks from hospitals.
       We recommend that you notify intermediaries about this problem
       and suggest that they refer identified cases to the Office of
       Inspector General. We suggest that the following language be
       used in that notification:
           ~ ~ l k a snotify
                       e     hospitals about potential legal
           liability under the anti-kickback statute when they
           enter into agreements with physicians not based on
           the fair market value of the g ~ J snds   services
           exchanged. The Office of Inspector General has
           identified situations that may PC :llegal when
           hospitals contract with hospital-bzaed physicians.
           To avoid potential legal liability, all contracts
           between hospitals and hospital-barzd physicians
           should comply with all the safe harbor provisions
           that may apply under the cc.stlact between the
           parties, Of particular kprtance are the safe
           harbors that protect payments for personal services
           and management contracts'and for services of bona
           fide employees, 42 CFR §§ 1001,952(d) and (i); 56
           Fed, Reg, 35985, 35987, It is noted that in some of
           the safe harbor provisions, we require that payments
           must be consistent with 'fair market value,' The
           regulation explicitly prcvides that safe harbor
           protection is not available where any part of the
Page   2   -   Gail R . Wilensky, Ph.D.
       payment takes into-accountthe volume or value of
       referrals or business otherwise generated by either
       party- This restriction is necessary because such
       payments directly violate the statute."
1


We appreciate the Health Care Financing Administration's
comments on the earlier version of this report and the
cooperation of your staff in finalizing this report. We hope
that you will find this report and its recommendations
acceptable.
In accordance with the requirements of the departmental
conflict resolution process, please submit within 60 days your
plan to implement the recommendations or explain why it is not
possible to do so. If you have any questions, please contact
me or have your staff contact Penny Thompson at ETS 646-3138.
